PASSENGER RAIL INVESTMENT AND
IMPROVEMENT ACT OF 2008:
Accomplishments and Requirements that Deserve Consideration for Future
Authorizing Legislation




                            Audit Report OIG-A-2014-003 | January 9, 2014
   NATIONAL RAILROAD
   PASSENGER CORPORATION




                                 REPORT HIGHLIGHTS
Why We Did This Review                    Passenger Rail Investment and Improvement Act of
Section 221 of the 2008 Passenger       2008: Accomplishments and Requirements that Deserve
Rail Investment and Improvement            Consideration for Future Authorizing Legislation
Act (PRIIA) requires the                             Audit Report OIG-A-2014-003, January 9, 2014
Department of Transportation
                                       What We Found
Office of the Inspector General
(DOT OIG) to assess Amtrak’s            Amtrak has made significant progress implementing PRIIA by addressing 24
progress implementing the Act’s         of the 29 assigned provisions. The corporation continues to work on
provisions within three years of        incorporating eight categories of information that were not fully addressed in
enactment, and two years                the last five-year financial plan, and on developing new agreements for
thereafter. With the approval of        allocating costs, revenues, and compensation for Northeast Corridor commuter
the Authorization Committees, we        facilities and services. Amtrak has not had to react to three provisions because
reached agreement with the DOT          the events that trigger a response have not yet occurred.
OIG that we would assess
                                        Three areas provide opportunities for savings and improved performance and
Amtrak’s progress implementing
                                        service quality:
provisions assigned to it. We
issued our first audit report on           Amtrak with Treasury’s assistance has successfully completed
October 26, 2011. This report               restructuring its debt on 13 capital leases, saving about $173 million;
provides the results of our second          however, the authorization for this provision expired in October 2010.
audit.                                      Amtrak with Treasury’s assistance could reduce its costs and federal
                                            subsidy requirements by about $393 million ($282 million in present-value
Our reporting objectives were to
                                            dollars) from FY 2014 through FY 2019 if this provision is reauthorized.
provide an assessment of (1) the
corporation’s progress implementing        In July 2013, the U.S. Court of Appeals for the D.C. Circuit ruled that the
Amtrak-assigned PRIIA provisions by         performance metrics and standards developed under PRIIA were not
comparing the provision’s                   enforceable. This ruling invalidated the metrics and standards, eliminating
requirements to the progress it has         those that measure on-time performance and the requirement to
made to address them, and (2) the           incorporate metrics and standards into the operating agreements with host
areas that present opportunities for        railroads. It also eliminated the authority for the metrics and standards to
savings and improved performance            be unilaterally reissued absent new authorizing legislation.
and service quality.
                                           Additional time and resources are needed to fully implement the Northeast
This report addresses the following         Corridor state of good repair plan, the Northeast Corridor infrastructure
Amtrak OIG Focus Area:                      and operations improvements, and the compliance requirements of the
                                            Americans with Disabilities Act. Reauthorizing the reporting requirements
Train Operations and Business
                                            in these three provisions would provide information to stakeholders to
Management
                                            help make informed decisions to execute these long-term efforts.
                                        We recommend that Amtrak fully address the requirements for the annual
                                        five-year financial plan. Congress may want to consider three areas that
                                        present opportunities for savings and improved performance and service
For further information, contact        quality in future authorization legislation. These areas include the provisions
Dave R. Warren, Assistant Inspector     related to early buyout options for capital leases, performance metrics and
General for Audits (202) 906-4600       standards, and reporting for plans that require additional time to complete.
The full report is at                  Agency Corrective Actions
www.amtrakoig.gov/reading-room
                                        In commenting on a draft of our report, Amtrak agreed with our recommendation.
      NATIONAL RAILROAD
      PASSENGER CORPORATION




Memorandum
To:             Joseph Boardman, President and CEO

From:           Ted Alves, Inspector General

Date:           January 9, 2014

Subject:        Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
                Requirements that Deserve Consideration for Future Authorizing Legislation
                (Audit Report OIG-A-2014-003)


This report provides the results of our audit of Amtrak’s progress implementing the
provisions of the 2008 Passenger Rail Investment and Improvement Act (PRIIA).
Section 221 of the Act requires the Department of Transportation (DOT) Office of the
Inspector General (OIG) to assess the progress of Amtrak and the Federal Railroad
Administration (FRA) implementing the Act’s provisions within three years of PRIIA’s
enactment, and two years thereafter. With the approval of the Senate and House
Authorization Committees, we reached agreement with the DOT OIG that Amtrak OIG
would assess the corporation’s progress and the DOT OIG would address FRA’s
progress implementing PRIIA provisions. We issued our first audit report on October
26, 2011.1 In keeping with the arrangement, this report provides the results of our
second audit.

We initiated this audit in April 2013. Our reporting objectives were to provide an
assessment of (1) the corporation’s progress implementing Amtrak-assigned PRIIA
provisions by comparing the provision’s requirements to the progress it has made to
address them, and (2) the areas that present opportunities for savings and improved
performance and service quality. For a discussion of our scope and methodology, see
Appendix I.

1Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but Continued
Commitment Needed to Fully Address Provisions (Report No. OIG-A-2012-001, October 26, 2011).
                                                                                           2
                               Amtrak Office of Inspector General
           Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
             Requirements that Deserve Consideration for Future Authorizing Legislation
                                 Audit Report OIG-A-2014-003


AMTRAK ADDRESSED MOST PROVISIONS AND CONTINUES
TO WORK ON TWO; THREE NOT YET REQUIRED TO ACT
The corporation has made good progress meeting the Act’s provisions, which is a
significant accomplishment given the magnitude of the issues:

      Amtrak addressed or responded to 24 of the 29 provisions assigned to it. For
       example, the corporation issued performance improvement plans for its long-
       distance routes and, with the assistance of DOT and the Department of the
       Treasury (Treasury), restructured some of its capital leases, saving $173 million
       ($115 million in present-value dollars).

      Amtrak continues to work on responding to two provisions. First, Section 204,
       Development of Five-Year Financial Plan, requires the corporation to address at
       least 16 categories of information, including projected revenues and expenditures
       and projected ridership, in its annual five-year financial plan. The corporation
       has issued all of the required annual five-year financial plans. However, the five-
       year financial plan for fiscal year (FY) 2013 through FY 2017 did not fully address
       eight data categories—expenditure forecasts for non-passenger operations;
       projected capital and operating requirements, ridership, and revenue for any
       new passenger service operations or service expansions; assessments of the
       corporation’s ability to efficiently recruit, retain, and manage its workforce;
       annual cash flow forecasts; projected operating ratio, cash operating loss, and
       cash operating loss per passenger on a route, business line, and corporate basis;
       prior fiscal year and projected specific costs and savings estimates resulting from
       reform initiatives; projected labor productivity statistics on a route, business line,
       and corporate basis; and prior fiscal year and projected equipment reliability
       statistics.

      Second, the corporation is a member of the Northeast Corridor Infrastructure
       and Operations Advisory Commission, which continues to develop and
       implement a methodology for allocating costs, revenues, and compensation
       required by Section 212, Northeast Corridor Infrastructure and Operations
       Improvements. Within 2 years of PRIIA enactment, the Commission is to develop
       a standardized formula for determining and allocating costs, revenues, and
       compensation for Northeast Corridor commuter rail passenger transportation.
       This section also requires Amtrak and public authorities providing commuter
                                                                                          3
                               Amtrak Office of Inspector General
           Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
             Requirements that Deserve Consideration for Future Authorizing Legislation
                                 Audit Report OIG-A-2014-003


       rail passenger transportation on the Northeast Corridor to implement new
       agreements for usage of facilities or services based on this standardized formula.
       Further, if the entities fail to implement such new agreements in accordance with
       the timetable, the Commission shall petition the Surface Transportation Board to
       determine the appropriate compensation amounts for such services. The Vice
       President of Operations estimates that the development of the methodology will
       be completed in the summer of 2014, and implemented in October 2014.

      Amtrak has not had to react to three provisions because the events that trigger its
       response have not yet occurred. For example, no Amtrak-operated route has
       been eliminated under Section 215, Employee Transition Assistance, which is the
       precondition for the corporation to certify that it made a reasonable attempt to
       reassign affected employees.

For a detailed discussion of the corporation’s progress implementing each provision,
see Appendix II.


THREE AREAS THAT PROVIDE OPPORTUNITIES FOR
SAVINGS AND IMPROVED PERFORMANCE AND SERVICE
QUALITY

We identified three areas in the 2008 legislation that warrant consideration in future
authorization legislation because they provide opportunities for savings and improved
performance and service quality:

      provisions related to early buyout options for long-term debt and capital leases,
       providing the greatest opportunity for savings
      metrics and standards for improving and measuring the performance and service
       quality of intercity passenger rail service
      reporting requirements for programs that require additional time and resources
       to implement

These areas are discussed below.
                                                                                                       4
                                Amtrak Office of Inspector General
            Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
              Requirements that Deserve Consideration for Future Authorizing Legislation
                                  Audit Report OIG-A-2014-003


Reauthorizing the Authority to Restructure More Long-Term Debt and
Capital Leases Would Generate Savings (Section 205)
Exercising buyout options can significantly lower Amtrak’s lease payment and debt
service costs. Under PRIIA, Amtrak and Treasury have successfully completed
restructuring Amtrak’s debt on 13 capital leases. Their actions have saved about
$173 million ($115 million in present-value dollars) from FY 2011 through FY 2013.
Section 205, Restructuring Long-Term Debt and Capital Leases, authorized the Secretary of
the Treasury—in consultation with the Secretary of Transportation and the
corporation—to enter into negotiations with holders of Amtrak debt and repay that
debt. However, the authorization for this section expired two years (October 16, 2010)
after PRIIA enactment. If the corporation was able to exercise future early buyout
options with Treasury’s support, it could reduce its financing costs and federal subsidy
requirements by about $393 million ($282 million in present-value dollars) from FY 2014
through FY 2019.2

Table 1 shows the breakout by fiscal year of the 13 capital leases that Treasury selected
and that Amtrak restructured, which resulted in $173 million ($115 million in present-
value dollars) in savings. Treasury selected leases whose buyout options could be
exercised after the date of the signed memorandum of understanding by DOT and
Treasury (October 15, 2010)3 and before September 30, 2013. The corporation exercised
approximately $427 million of the early buyouts and saved approximately $600 million
in future payments, in effect saving approximately $173 million ($115 million in
present-value dollars).




2 Amtrak originally provided Treasury with a listing of 52 leases with early buyout options from FY 2010
through FY 2019. It has completed early buyouts of 13 leases from FY 2011 through FY 2013. For the
remaining 39 leases, the corporation bought out six leases, leaving a balance of 33 leases.
3 Memorandum of Understanding between the Secretary of the Treasury and the Secretary of Transportation,

October 15, 2010, set forth the terms and conditions for the exercise of certain early buyout options on
some leases entered into by Amtrak.
                                                                                                     5
                                  Amtrak Office of Inspector General
              Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
                Requirements that Deserve Consideration for Future Authorizing Legislation
                                    Audit Report OIG-A-2014-003


        Table 1. Early Buyout of Capital Leases from FY 2011–FY 2013
                             (dollars in millions)
                                                                                             Estimated
                                                            Early                              savings
                           Number         Maturity         buyout      Estimated              (present
Fiscal year               of leases         value         amounts        savings                value)a
2011                               2            $75             $52            $23                 $15
2012                               6            364             265             99                  63
2013                               5            161             110             51                  36
Total                             13           $600            $427          $173                 $115
a
 Present value is based on the dates of the early buyout options.
Note: Figures do not total due to rounding.
Source: OIG analysis of Amtrak data


As shown in Table 2, the corporation has 33 capital leases with early buyout options
from FY 2014 through FY 2019. Restructuring these leases could result in savings of
$393 million ($282 million in present-value dollars). To accomplish early buyout of these
leases, $571 million would be required, but funding from Treasury to finance the
buyouts will not be available for future buyout options because the authorization for
this section expired two years (October 16, 2010) after the date of PRIIA enactment.
                                                                                                        6
                                  Amtrak Office of Inspector General
              Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
                Requirements that Deserve Consideration for Future Authorizing Legislation
                                    Audit Report OIG-A-2014-003


                Table 2. Capital Leases with Early Buyout Options
                   from FY 2014–FY 2019 (dollars in millions)
                                                                                             Estimated
                                                           Early                               savings
                           Number         Maturity        buyout         Estimated            (present
Fiscal year               of leases         value        amounts           savings              value)a
2014                               9           $304            $197             $108                 $65
2015                               3             17              10                7                    5
2016                               2             71              36               36                  33
2017                               8            230             138               92                  68
2018                               8            278             154              124                  91
2019                               3             64              36               28                  21
Total                             33           $965            $571             $393                $282
a
 Present value is based on the dates of the early buyout options.
Notes: Figures do not total due to rounding.
Amtrak is considering whether or not to exercise early buyouts of 20 leases eligible from FY 2016 through
FY 2019 because the equipment may not be needed after their lease periods end.
Source: OIG analysis of Amtrak data.


To fund the FY 2014 early buyouts, the corporation has requested almost $200 million to
exercise early buyouts of the nine leases as part of its FY 2014 federal capital grant
request. If this funding is not provided, the corporation is also considering obtaining
loans to exercise early buyouts of the nine leases eligible in FY 2014. Also, Congress
could reauthorize the provision to give Treasury the authority to make agreements to
restructure and pay the corporation’s indebtedness, including leases.

Authorizing FRA to Develop and Issue New Metrics and Standards Is
Key to Measuring and Improving Performance and Service Quality
(Section 207)
Section 207, Metrics and Standards, required the corporation and FRA—in consultation
with the Surface Transportation Board, host railroads, states, labor organizations, and
rail passenger associations—to develop metrics and minimum standards for measuring
and improving the performance and service quality of intercity passenger train service,
including cost recovery and measures of on-time performance. This section is important
because one of the underlining purposes of this section was to increase on-time
                                                                                                         7
                                 Amtrak Office of Inspector General
             Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
               Requirements that Deserve Consideration for Future Authorizing Legislation
                                   Audit Report OIG-A-2014-003


performance through the requirement that Amtrak incorporate those metrics and
standards into its operating agreements with host railroads to the extent practicable.
The corporation worked with FRA to develop the required metrics and standards,
which became effective on May 12, 2010.

In July 2013, the U.S. Court of Appeals for the D.C. Circuit ruled that the performance
metrics and standards developed under PRIIA were not enforceable.4 This decision
invalidated (1) the metrics and standards, including those that measure on-time
performance of Amtrak trains operating on host railroad tracks, financial metrics (e.g.,
requiring continuous year-over-year improvement in percentage of short-term
avoidable operating cost covered by passenger-related revenue); (2) the corollary
requirement that Amtrak incorporate those metrics and standards into its operating
agreements with host railroads to the extent practicable; and (3) likely, the quality or
customer service metrics (e.g., requiring certain percentages of passengers reporting
"very satisfied" with service). It also eliminated the authority for the metrics and
standards to be unilaterally reissued if there is no new authorizing legislation. 5

Although the court ruled that the metrics and standards were not enforceable, Amtrak
continues to use a series of internally-developed metrics and performance targets to
measure and track progress in accomplishing each of its strategic goals. Performance
plans for employees at all levels of the corporation are tied to these metrics beginning
with the executive committee and cascading throughout the corporation. This process is
expected to help to ensure that all employees are contributing not only to their group or
department, but also to the corporation’s overall strategic goals. The metrics include:

       financial and operating—cost recovery, loss per passenger-mile, and passenger-
        miles per train-mile


4 Representing the freight railroads, the Association of American Railroads had bought a lawsuit against
DOT, the Secretary of Transportation, FRA, and the FRA Administrator that challenges the
constitutionality of Section 207 and argued that the court should strike down Section 207. The Association
contends that because regulating host freight railroads performance is a governmental function, it is
unconstitutional to delegate to a private entity, Amtrak, the authority to participate in crafting those
regulations.
5 It should be noted that the government requested the court of appeals to rehear this appeal before all of

the appellate judges (en banc), contending that Section 207 does not delegate to a private party regulatory
authority having the force of law. On October 11, 2013, the court of appeals denied the government’s
petition for rehearing en banc.
                                                                                                       8
                                Amtrak Office of Inspector General
            Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
              Requirements that Deserve Consideration for Future Authorizing Legislation
                                  Audit Report OIG-A-2014-003


       on-time performance and train delays—effective speed, endpoint on-time
        performance, all stations on-time performance, and host railroad and Amtrak
        train delays
       customer satisfaction—overall satisfaction, personnel, communications, on-board
        service, train station, and sleeping car experience


Reauthorizing the Reporting Requirements in Three Provisions Would
Ensure Information for Congress and Other Stakeholders to Help
Make Informed Decisions About Three Long-term Programs (Sections
211, 212, and 219)
Additional time and resources are needed to implement the Northeast Corridor state of
good repair plan, Northeast Corridor infrastructure and operations improvements, and
the Americans with Disabilities Act of 1990, as amended (ADA) compliance
requirements at intercity rail stations. During their implementation, reauthorizing the
reporting requirements would provide information for Congress and other stakeholders
to help make informed decisions about these long-term programs. Some of the issues
related to these provisions are:

       Section 211, Northeast Corridor State-Of-Good-Repair Plan. This provision
        requires the corporation—in consultation with the Secretary of Transportation,
        Washington D.C., and the states that make up the Northeast Corridor—to
        prepare a capital spending plan for projects required to return the Northeast
        Corridor main line to a state of good repair. The plan is to be updated at least
        annually. Amtrak reported that the state of good repair includes the costs to
        maintain assets within their useful lives or replace them if they exceed their
        useful life.6 The corporation estimated that approximately $10.4 billion will be
        needed between FY 2009 and FY 2023 to return the Northeast Corridor
        infrastructure to a state of good repair and eliminate the infrastructure backlog of
        deferred investment. According to Amtrak’s plan, if it fails to fund these projects
        or greatly extends the timeline, the total cost of obtaining a state of good repair

6On July 25, 2008, the Secretary of Transportation defined the state of good repair as “A condition in
which the existing physical assets, both individually and as a system, (a) are functioning as designed
within their useful lives and (b) are sustained through regular maintenance and replacement programs;
state of good repair represents just one element of a comprehensive capital investment program that also
addresses system capacity and performance.”
                                                                                              9
                                   Amtrak Office of Inspector General
               Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
                 Requirements that Deserve Consideration for Future Authorizing Legislation
                                     Audit Report OIG-A-2014-003


           will be significantly greater. Ordinary maintenance costs will rise and individual
           component renewals will become more frequent. Also, the corridor will suffer a
           decrease in the reliability of commuter and intercity passenger rail service.

           However, the corporation has not received the necessary funding to fully
           implement the plan. Amtrak reported that recent funding has only allowed it to
           prevent the backlog from growing.7 There has been inadequate funding to
           replace major assets, such as tunnels and bridges, that are beyond their designed
           life. This has resulted in choke points, rough track beds, and outdated signals,
           bridges, and electric traction infrastructure that continue to limit speeds within
           the Northeast Corridor. Therefore, further extensions are likely to the
           corporation’s estimated completion date in the Northeast Corridor state of good
           repair plan.

           Amtrak management believes that the annual state of good repair spend plan
           required under PRIIA should be incorporated within a broader comprehensive
           capital investment planning framework. That framework would address state of
           good repair and growth needs on the corridor for Amtrak, as well as, the eight
           commuter agencies that rely on the Northeast Corridor. Because the corridor is
           currently at or reaching its capacity limits on many segments, they believe capital
           investment plans designed to achieve a state of good repair and accommodate
           reasonable forecasts of future growth, are the most cost effective in the long-
           term. They also noted this would help to minimize disruption to existing services
           during construction, a critically important consideration on a rail line that is
           among the busiest in the world, handling more than 2,000 trains a day.

           Amtrak management also stated that a comprehensive five-year plan, that
           includes state of good repair and growth needs, is currently being developed in
           cooperation with the Northeast Corridor Infrastructure and Operations Advisory
           Commission and its member agencies including DOT, Amtrak, and the northeast
           states. The Commission, created under PRIIA, is responsible for making
           recommendations to Congress on capital investment needs, and the
           comprehensive plan. The five year plan will include investment needs on non-
           Amtrak owned portions of the corridor in New York and Connecticut, and will
           form the basis for recommendations to Congress. Preliminary estimates, that will

7   Amtrak’s Fiscal Years 2013 – 2017 Five Year Plan, May 2013.
                                                                                                       10
                                Amtrak Office of Inspector General
            Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
              Requirements that Deserve Consideration for Future Authorizing Legislation
                                  Audit Report OIG-A-2014-003


        be further refined by upcoming state of good repair assessments and five-year
        capital planning process, suggest that the complete costs of efforts, including
        normalized replacement, programmatic backlog and major project backlog
        amounts, will significantly exceed the 2011 estimate.

       Section 212, Northeast Corridor Infrastructure and Operations Improvements.
        This provision requires the corporation to issue a report detailing the
        infrastructure and equipment improvements necessary to provide regular high-
        speed service between Washington D.C. and New York City; and between
        Boston, Massachusetts, and New York City. In 2009, the corporation reported
        that achieving significantly reduced trip times on the Northeast Corridor has
        become increasingly difficult because of a combination of factors, including the
        continuing backlog of deferred investment, growing demand and increased
        utilization of the corridor leading to significant capacity constraints, and
        limitations of existing equipment.8 The corporation also reported a listing of
        projects and an order of magnitude estimate of costs from FY 2010 through
        FY 2023.

        However, according to Amtrak’s report, funding has not been sufficient to
        achieve these trip time goals for the corridor. The corporation also reported that
        continued reliance on annual appropriations to fund the Northeast Corridor
        capital program will continue to frustrate efforts to meet trip time goals for the
        corridor. Other significant challenges to meeting the goals include coordinating
        among numerous owners, operators, and other stakeholders; and developing
        and apportioning sufficient financial resources to improve the infrastructure and
        sustain growth.

       Section 219, Study of Compliance Requirements at Existing Intercity Rail
        Stations. This provision requires the corporation, in consultation with station
        owners and other railroads, to issue an evaluation of the improvements
        necessary to ensure that the stations it serves comply with ADA. The evaluation
        is to include a detailed plan and schedule for bringing all applicable stations into
        compliance, along with recommendations for funding the necessary
        improvements. The corporation reported to Congress on its progress to comply

8Amtrak, Interim Assessment of Achieving Improved Trip Times on the Northeast Corridor—PRIIA Section 212
(d), October 21, 2009.
                                                                                                          11
                                 Amtrak Office of Inspector General
             Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
               Requirements that Deserve Consideration for Future Authorizing Legislation
                                   Audit Report OIG-A-2014-003


        with ADA in February 2009, and updated its evaluation in October 2010, August
        2011, May 2012, August 2012, December 2012, and October 2013.

        In September 2011, we reported that the October 2010 plan update refocused the
        corporation’s ADA compliance program.9 First, while the February 2009 plan
        focused on both ADA compliance and “state of good repair” work, the plan
        update focused solely on ADA compliance work. Second, the 2009 plan focused
        on all Amtrak served stations that were required to be ADA-compliant, while the
        plan update initially focuses efforts on the stations for which the corporation has
        sole responsibility but are not fully ADA-compliant, and then the stations at
        which the corporation shares responsibility and also are not fully compliant.
        Third, the October 2010 update did not include an estimate of the funding
        required to achieve compliance by Amtrak’s goal date.

        In its 2011 update,10 the corporation reported that it will work to achieve the
        Act’s compliance, at all stations for which it has responsibility, by the end of FY
        2015. It also noted that progress has been slower than anticipated because of the
        challenges associated with management of a program of this size and
        complexity. Further, Amtrak expects that coordination with and cooperation
        from other entities who own the stations or land will continue to be a major
        challenge.

        In 2012,11 the corporation reported that this effort was a large, multi-year
        undertaking that will require significant financial resources and staff time. The
        corporation reported to Congress that additional, substantial changes would be
        required at numerous stations because of the DOT’s boarding rule issued in




9 Americans with Disabilities Act: Leadership Needed to Help Ensure That Stations Served By Amtrak Are
Compliant (Report No. 109–2010, September 29, 2011).
10 Amtrak, Intercity Rail Stations Served by Amtrak: An Update on Accessibility and Compliance with the

Americans With Disabilities Act of 1990, August 2011.
11 Amtrak, Update to Congress on Amtrak Accessible Stations Development Program, August 7, 2012.
                                                                                                          12
                                 Amtrak Office of Inspector General
             Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
               Requirements that Deserve Consideration for Future Authorizing Legislation
                                   Audit Report OIG-A-2014-003


         September 2011.12 These changes will expand the necessary scope of work at
         many stations. As a result, implementing the compliance requirements will take
         longer and cost more to complete than initially proposed. The extent to which the
         rule will lengthen the program and increase its costs is unclear. According to
         Amtrak, further refinements to the corporation’s evaluations of the compliance
         requirements of ADA are likely. We are conducting a follow-up audit of the
         issues identified in the 2011 report.


RECOMMENDATION
To complete the efforts to improve financial reporting based on Section 204, we
recommend that the President and Chief Executive Officer direct the departments
responsible for developing annual five-year financial plans to fully address the 16
information categories required by PRIIA, including

        expenditure forecasts for non-passenger operations

        projected capital and operating requirements, ridership, and revenue for any
         new passenger service operations or service expansions—the new
         Richmond/Norfolk segment

        assessments of the corporation’s ability to efficiently recruit, retain, and manage
         its workforce

        annual cash flow forecasts




12See 76 FR 57924 (September 19, 2011). In summary, the regulations provide: “The Department is
amending its Americans with Disabilities Act (ADA) regulations to require intercity, commuter, and
high-speed passenger railroads to ensure, at new and altered station platforms, that passengers with
disabilities can get on and off any accessible car of the train. Passenger railroads must provide level-entry
boarding at new or altered stations in which no track passing through the station and adjacent to
platforms is shared with existing freight rail operations. For new or altered stations in which track
passing through the station and adjacent to platforms is shared with existing freight rail operations,
passenger railroads will be able to choose among a variety of means to meet a performance standard to
ensure that passengers with disabilities can access each accessible train car that other passengers can
board at the station.”
                                                                                          13
                               Amtrak Office of Inspector General
           Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
             Requirements that Deserve Consideration for Future Authorizing Legislation
                                 Audit Report OIG-A-2014-003


      projected operating ratio, cash operating loss, and cash operating loss per
       passenger on a route, business line, and corporate basis

      prior fiscal year and projected specific costs and savings estimates resulting from
       reform initiatives

      projected labor productivity statistics on a route, business line, and corporate
       basis

      prior fiscal year and projected equipment reliability statistics


MATTERS FOR CONGRESSIONAL CONSIDERATION
Since Congress is in the process of developing new passenger rail authorization
legislation, it may want to consider the following actions given the potential to generate
savings and improve Amtrak’s performance and service quality:

      reauthorizing the Secretary of the Treasury, in consultation with the Secretary of
       Transportation and Amtrak, to enter into negotiations with the holders of
       Amtrak debt, including leases, for the purpose of restructuring and repaying that
       debt
      authorizing FRA, in consultation with the Surface Transportation Board, Amtrak,
       rail carriers over whose rail lines Amtrak trains operate, states, Amtrak
       employees, nonprofit employee organizations representing Amtrak employees,
       and groups representing passengers, to develop new or improve existing metrics
       and minimum standards for measuring the performance and service quality of
       intercity passenger train operations
      reauthorizing the reporting requirements for three key long-term programs—the
       Northeast Corridor state of good repair, the Northeast Corridor infrastructure
       and operations improvements, and the ADA compliance requirements at
       intercity rail stations


MANAGEMENT COMMENTS AND OIG ANALYSIS
In commenting on a draft of our report, the President and Chief Executive Officer
agreed with our recommendation to fully address the 16 information categories
                                                                                         14
                              Amtrak Office of Inspector General
          Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
            Requirements that Deserve Consideration for Future Authorizing Legislation
                                Audit Report OIG-A-2014-003


required under section 204 of PRIIA and stated that it would ensure that the
corporation’s next annual five-year financial plan would include the required
information. He also agreed that the three areas we identified as matters for
congressional consideration would have a positive impact on the corporation’s ability to
improve service and stated that the actions like those described would impact the
corporation’s financial bottom line and customer satisfaction, which are pillars in its
strategic vision.

For a copy of Amtrak’s comments, see Appendix III. Management also provided
technical comments, which we addressed as appropriate in this report.
                                                                                                       15
                                 Amtrak Office of Inspector General
             Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
               Requirements that Deserve Consideration for Future Authorizing Legislation
                                   Audit Report OIG-A-2014-003


                                             Appendix I

                           SCOPE AND METHODOLOGY

This report provides the results of our audit to examine (1) the corporation’s progress
implementing Amtrak-assigned PRIIA provisions by comparing the provision’s
requirements to the progress it has made to address them, and (2) the areas that present
opportunities for savings and improved performance and service quality. We issued
our first audit report on these areas in October 2011,13 and this report provides the
results of our second audit. We conducted this audit work from April through
November 2013 in Washington D.C. and Philadelphia, Pennsylvania.

To determine the status of Amtrak actions to implement individual provisions, we
(1) compared the corporation’s deliverables and responses with the Act’s requirements,
deadlines, and suggestions; and (2) discussed our observations with responsible
officials across most departments within the corporation, including Finance,
Operations, Northeast Corridor Infrastructure and Investment Development,
Transportation, Engineering, Policy and Development, Marketing, General Counsel,
and Government Affairs and Corporate Communications. During these discussions, we
did the following:

        validated instances in which Amtrak had not fully addressed PRIIA provisions
        identified the reasons why the corporation missed a deadline or only partially
         addressed a requirement
        resolved any uncertainties and outstanding questions

To evaluate areas that present opportunities for savings and improved performance and
service quality, we reviewed the corporation’s actions to implement five provisions:
        Section 205, Restructuring Long-Term Debt and Capital Leases
        Section 207, Metrics and Standards
        Section 211, Northeast Corridor State of Good Repair Plan
        Section 212, Northeast Corridor Infrastructure and Operations Improvements
        Section 219, Study of Compliance Requirements at Existing Intercity Rail Stations


 Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but Continued
13

Commitment Needed to Fully Address Provisions (Report No. OIG-A-2012-001, October 26, 2011).
                                                                                                        16
                                 Amtrak Office of Inspector General
             Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
               Requirements that Deserve Consideration for Future Authorizing Legislation
                                   Audit Report OIG-A-2014-003


We judgmentally selected these provisions because they present opportunities for
savings and improved performance and service quality that warrant consideration in
future authorization legislation. To help us determine which PRIIA provisions to select
for more detailed review, we relied on DOT OIG audit reports and our prior work.

For Section 205, Restructuring Long-Term Debt and Capital Leases, our methodology
included determining the status of the 52 leases Amtrak identified to Treasury for
potential early buyout from FY 2010 through 2019. We reviewed information on the 13
leases from FY 2011 through FY 2013 selected by Treasury for early buyout. For the
remaining 39 leases, Amtrak provided information showing that it bought out 6 leases,
leaving 33 eligible for early buyouts from FY 2014 through FY 2019. We analyzed the
lease data the corporation provided to Treasury for these 33 leases, but were not
selected for debt reduction. From these data, we identified the following for each lease:

        maturity value—the amount paid if the lease goes to maturity
        buyout amount—the amount needed to pay off the lease early
        savings from paying off the lease early—the difference between the maturity value
         and buyout amount

In addition, we evaluated the corporation’s present-value savings calculations made
using Treasury’s methodology. Also, because the authorization for this section expired
two years (October 16, 2010) after the date of PRIIA enactment, we solicited responses
from the Acting Chief Financial Officer, Treasurer, and Senior Director of Corporate
Finance on the options the corporation is considering to further reduce debt and realize
savings. We did not, however, review or validate the business case used to support the
leased equipment proposed acquisition.

For Section 207, Metrics and Standards, our methodology included reviewing the ruling
of the U.S. Court of Appeals for the D.C. Circuit that the metrics and standards
developed and promulgated jointly by the corporation and FRA under this provision
are not enforceable.14 We also discussed with the Managing Deputy General Counsel



14The Association of American Railroads had brought a lawsuit against DOT, the Secretary of
Transportation, FRA, and the FRA Administrator that challenged the constitutionality of PRIIA Section
207, arguing that the requirements unlawfully delegate regulatory power to a private institution
(Amtrak).
                                                                                          17
                               Amtrak Office of Inspector General
           Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
             Requirements that Deserve Consideration for Future Authorizing Legislation
                                 Audit Report OIG-A-2014-003


the effects of the ruling and options to address the potential impacts of the ruling on
operations.

For Section 211, Northeast Corridor State of Good Repair Plan; Section 212, Northeast
Corridor Infrastructure and Operations Improvements; and Section 219, Study of Compliance
Requirements at Existing Intercity Rail Stations, our methodology included discussing the
status of the programs authorized by each provision with officials of the Government
Affairs and Corporate Communications office and of the Northeast Corridor
Infrastructure and Investment Development office. We also reviewed and discussed
with appropriate management officials the reporting requirements for each and how
reauthorization measures could help ensure improvements in the affected programs.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Internal Controls
In conducting this audit, we reviewed the corporation’s internal controls related to the
implementation of PRIIA by comparing its deliverables and responses with the Act’s
requirements, deadlines, and suggestions. Specifically, we identified and assessed
internal or management controls, including procedures for monitoring and tracking the
corporation’s compliance with PRIIA provisions.

Computer-Processed Data
Several of the corporation’s deliverables and responses to the Act’s requirements are
based on computer-processed budget, expenditure, and performance data. We did not
validate the budget and financial data, but relied on the general and application review
of financial systems performance that is a part of the financial statement audit
performed by the corporation’s external auditors. We did not validate the performance
data, but relied on our prior audits of on-time performance invoices, which found that
performance data were generally accurate and reliable when compared with source
documents. We found sufficient assurance that we could rely on the computer-
                                                                                          18
                               Amtrak Office of Inspector General
           Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
             Requirements that Deserve Consideration for Future Authorizing Legislation
                                 Audit Report OIG-A-2014-003


processed data to accomplish our audit objectives. Given the focus of our work and the
steps we took to verify the reliability of the computer-generated data used in our work,
we concluded that the data are sufficiently reliable for the purposes of our objectives.

Prior Coverage
In conducting our analysis of issues, we reviewed and used information from the
following audit reports:


      Food and Beverage Service: Potential Opportunities to Reduce Losses, Amtrak OIG
       (Report No. OIG-A-2014-001, October 31, 2013)

      Annual Report on Amtrak’s Budget and 5-Year Financial Plan, DOT OIG (July 25,
       2013)

      Audit of Grant Agreement: Next Generation Equipment Committee Materially Complied
       with Terms of the Grant Agreement, Amtrak OIG (Report No. OIG-A-2013-012,
       March 27, 2013)

      Amtrak’s New Cost Accounting System Is a Significant Improvement But Concerns
       Over Precision and Long Term Viability Remain, DOT OIG (March 27, 2013)

      Annual Financial Statement Audits: Observations for Improving Oversight of the
       Independent Public Accountant, Amtrak OIG (Report No. OIG‐A‐2012‐017,
       September 27, 2012)

      American Recovery and Reinvestment Act: Some Questioned Invoice Charges and
       Minimal Benefit from Duplicative Invoice-Review Process, Amtrak OIG (Report No.
       OIG-A-2012-021, September 21, 2012)

      Food and Beverage Service: Initiatives to Help Reduce Direct Operating Losses Can Be
       Enhanced by Overall Plan, Amtrak OIG (Report No. OIG-A-2012-020, September 7,
       2012)

      Analysis of the Causes of Amtrak Train Delays, DOT OIG (July 10, 2012)
                                                                                         19
                            Amtrak Office of Inspector General
        Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
          Requirements that Deserve Consideration for Future Authorizing Legislation
                              Audit Report OIG-A-2014-003


   Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good
    Progress, but Continued Commitment Needed to Fully Address Provisions, Amtrak
    OIG (Report No. OIG-A-2012-001, October 26, 2011)

   Americans with Disabilities Act: Leadership Needed to Help Ensure That Stations
    Served by Amtrak Are Compliant, Amtrak OIG (Report No. 109-210, September 29,
    2011)

   Progress and Opportunities in Amtrak’s Implementation of the Passenger Rail
    Investment and Improvement Act of 2008. Statement of Ted Alves, Inspector
    General, National Railroad Passenger Corporation, before the Subcommittee on
    Surface Transportation and Merchant Marine Infrastructure, Safety, and Security,
    Committee on Commerce, Science, and Transportation, United States Senate,
    September 14, 2011.

   Food and Beverage Service: Further Actions Needed to Address Revenue Losses Due to
    Control Weaknesses and Gaps, Amtrak OIG (Report No. E-11-03, June 23, 2011)
                                                                                                            20
                               Amtrak Office of Inspector General
           Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
             Requirements that Deserve Consideration for Future Authorizing Legislation
                                 Audit Report OIG-A-2014-003


                                           Appendix II

               AMTRAK HAS MADE GOOD PROGRESS
                      ADDRESSING PRIIA

This appendix discusses Amtrak’s actions to address the 29 PRIIA provisions assigned
to it. The corporation has addressed 24 provisions, continues to address 2 provisions,
and has not reacted to 3 provisions because the events that trigger the response have
not yet occurred.

The Corporation Has Addressed 24 Provisions
The requirements specified in the 24 provisions that the corporation has addressed
range from such diverse topics as establishing an improved financial accounting system
to producing technical specifications for the next generation of train equipment. The
actions the corporation took to address these provisions are summarized in Table 3.

                Table 3. Amtrak Has Addressed 24 Provisions
  PRIIA
 Section          Title                    Requirement                                   Action
   202      Amtrak Board of    PRIIA revised the composition of the        The corporation has reported the
            Directors          corporation’s Board of Directors to         required annual travel and
                               establish a nine-member board. No           reimbursable business travel
                               later than 60 days after the end of         expenses for each Board member to
                               each fiscal year, the Board must report     specific congressional committees.
                               all travel and reimbursable business
                               travel expenses for each member to
                               specific congressional committees.
   203      Establishment of   Amtrak must implement a modern              The corporation’s new financial
            Improved           financial accounting and reporting          accounting and reporting system
            Financial          system within three years of PRIIA’s        became fully operational in May
            Accounting         enactment.                                  2012, according to the Acting Chief
            System             No later than 90 days after the end of      Financial Officer.
                               each fiscal year through FY 2013,           In March 2013, DOT OIG reported
                               Amtrak must issue a comprehensive           that the new cost accounting system
                               report that allocates all of its revenues   allows the corporation to capture
                               and costs to each route, line of            and report its financial performance
                               business, and major activity within         by route, business line, and major
                               each route and line of business             activity—as required by PRIIA. It
                               activity.                                   also reported some concerns related
                                                                           to timeliness and precision of
                                                                           reports. It also reported that the
                                                                           avoidable cost methodology FRA
                                                                           developed to determine the cost
                                                                           savings from an Amtrak route’s
                                                                                                          21
                              Amtrak Office of Inspector General
          Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
            Requirements that Deserve Consideration for Future Authorizing Legislation
                                Audit Report OIG-A-2014-003

 PRIIA
Section          Title                   Requirement                                  Action
                                                                       termination has limitations that
                                                                       would substantially reduce the value
                                                                       of the saving estimates. The OIG
                                                                       made four recommendations to FRA
                                                                       to improve Amtrak’s financial
                                                                       performance reporting, including to
                                                                       evaluate alternatives for calculating
                                                                       avoidable costs.
                                                                       The corporation reports its revenues
                                                                       and costs on each of its routes, lines
                                                                       of business, and each major activity
                                                                       within each route in its annual five-
                                                                       year financial plan.
  205      Restructuring      The Secretary of the Treasury, in        Amtrak and the Secretaries of the
           Long-Term Debt     consultation with the Secretary of       Treasury and Transportation signed
           and Capital        Transportation and the corporation,      an agreement to exercise early
           Leases             may make agreements to restructure       buyout options on 13 leases using
                              the corporation’s indebtedness. This     Treasury funds—saving the
                              authorization expired two years after    corporation and the federal
                              PRIIA enactment.                         government approximately $173
                              The corporation may not incur more       million ($115 million in present-value
                              debt after PRIIA enactment without the   dollars).
                              Secretary of Transportation’s            Thirty-three additional leases have
                              approval.                                buyout options from FY 2014
                                                                       through FY 2019; however, the
                                                                       authorization for this section expired
                                                                       two years (October 16, 2010) after
                                                                       PRIIA enactment. The corporation is
                                                                       exploring other options to finance
                                                                       the additional buyout opportunities.
                                                                       It has not incurred additional debt
                                                                       without prior approval from the
                                                                       Secretary of Transportation.
  206      Establishment of   The Secretary of Transportation has      The corporation has complied with
           Grant Process      primary responsibility for the           the newly established grant
                              establishment of procedures for grant    application process.
                              requests. The corporation is
                              responsible for submitting grant
                              requests consistent with the grant
                              process to the Secretary of
                              Transportation.
  207      Metrics and        Within 180 days after PRIIA’s            The FRA issued the required metrics
           Standards          enactment, Amtrak and FRA—in             and standards, effective May 12,
                              consultation with the Surface            2010.
                              Transportation Board, host railroads,    On July 2, 2013, the U.S. Court of
                              states, the corporation’s labor          Appeals for the D.C. Circuit ruled
                              organizations, and rail passenger        that the metrics and standards
                              associations—must develop metrics        developed under Section 207 were
                              and minimum standards for measuring      not enforceable. The practical
                              the performance and service quality of   effects of this decision are to
                              intercity passenger train service. The   invalidate the metrics and standards,
                              metrics and standards must include       and eliminate FRA’s authority to
                                                                                                            22
                              Amtrak Office of Inspector General
          Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
            Requirements that Deserve Consideration for Future Authorizing Legislation
                                Audit Report OIG-A-2014-003

 PRIIA
Section          Title                    Requirement                                   Action
                              cost-recovery, on-time performance,        unilaterally reissue the metrics and
                              ridership per train mile, onboard and      standards without new authorizing
                              station services, and the connectivity     legislation.
                              of routes. The section also requires       The government requested that the
                              Amtrak to incorporate these metrics        court of appeals rehear this matter,
                              and standards into its operating           before all of the appellate judges of
                              agreements with host railroads to the      the court. The court rejected the
                              extent practicable.                        government’s petition for rehearing.
                              The corporation must provide
                              reasonable access to FRA in order to
                              enable it to carry out its duties under
                              this provision, which include collecting
                              the necessary data and publishing a
                              quarterly report on the performance
                              and service quality of intercity
                              passenger train operations.
  209      State-Supported    Within two years after PRIIA’s             The corporation worked with its state
           Routes             enactment, the corporation—in              partners to develop a standardized
                              consultation with DOT, relevant state      cost-sharing methodology, and the
                              governors, and Washington D.C.             Surface Transportation Board
                              mayor—must develop and implement           approved the methodology for
                              a nationwide standardized                  implementation in March 2012.
                              methodology for establishing and           All affected states have signed a
                              allocating operating and capital costs     service agreement with the
                              of intercity rail passenger service with   corporation to use the approved
                              affected states.                           cost-sharing methodology.
                              The methodology must (1) ensure,
                              within five years after PRIIA’s
                              enactment, equal treatment in the
                              provision of like services of all states
                              and groups of states, including
                              Washington D.C.; and (2) allocate to
                              each route the costs incurred only for
                              that route and a proportionate share of
                              costs incurred for the common benefit
                              of more than one route.
  210      Long-Distance      Amtrak is required to annually             The corporation completed the
           Routes             evaluate and rank its long-distance        ranking of all of its 15 long-distance
                              routes according to their overall          routes based on their performance
                              performance by the top-performing          during FY 2008 and issued plans for
                              third of such routes, the second-best-     all 15 routes—the first five in
                              performing third, and the worst-           September 2010, the second five in
                              performing third.                          September 2011, and the final five in
                              It must then develop and post on its       September 2012. Each of the plans
                              website performance-improvement            addressed the required nine
                              plans for its long-distance passenger      information categories.
                              routes and begin implementing those
                              plans for the worst-performing routes
                              in FY 2010, the second-best-
                              performing routes in FY 2011, and the
                              best-performing routes in FY 2012.
                              The plans must address nine
                              categories of information, including on-
                                                                                                               23
                              Amtrak Office of Inspector General
          Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
            Requirements that Deserve Consideration for Future Authorizing Legislation
                                Audit Report OIG-A-2014-003

 PRIIA
Section          Title                      Requirement                                    Action
                                time performance, the feasibility of
                                restructuring service into connected
                                corridor service, performance-related
                                equipment changes and capital
                                improvements, onboard amenities and
                                service, and financial performance.
  211      Northeast            Within six months of PRIIA’s                The corporation issued the required
           Corridor State-of-   enactment, Amtrak—in consultation           spending plan in April 2009 and has
           Good-Repair Plan     with the Secretary of Transportation,       provided updates as part of its five-
                                Washington D.C., and the states that        year plans for FYs 2012–2016 and
                                make up the Northeast Corridor—must         FYs 2013–2017.
                                prepare a capital spending plan for
                                projects required to return the
                                Northeast Corridor main line to a state
                                of good repair by the end of FY 2018.
                                The spending plan must be consistent
                                with the funding levels authorized by
                                PRIIA. Also, the corporation must
                                update the plan at least annually.
  213      Passenger Train      The Surface Transportation Board            The corporation hired additional
           Performance          may initiate an investigation if the on-    employees to track on-time
                                time performance of any intercity           performance. Also, it developed a
                                passenger train averages less than 80       process to determine if and when to
                                percent for any two consecutive             request an investigation by the
                                calendar quarters, or if the service        Surface Transportation Board.
                                quality of intercity passenger train        The corporation presented a case to
                                operations fails to meet the minimum        the Board against a freight railroad
                                standards established under Section         because it caused delays of
                                207 for two consecutive calendar            passenger trains. Amtrak, the freight
                                quarters.                                   railroad, and the Board went to
                                The Board is required to initiate an        mediation and the parties agreed,
                                investigation upon the filing of a          per the freight railroad’s suggestion,
                                complaint by the corporation, an            that they postpone the proceedings
                                intercity passenger rail operator, a        while the freight railroad proves it
                                host railroad, or an entity for which the   can operate within the 80 percent
                                corporation operates intercity              minimum standard.
                                passenger rail service.
                                The purpose of the investigation is to
                                determine whether and to what extent
                                delays or failure to achieve minimum
                                standards are due to causes that
                                could reasonably be addressed by the
                                host railroad. The Board is also
                                authorized to investigate whether
                                delays or failures to achieve minimum
                                standards are attributable to a host
                                railroad’s failure to provide preference,
                                a statutory right that affords the
                                corporation preference over freight
                                transportation in using a rail line,
                                junction, or crossing.
                                The Board can award damages if it
                                finds that the corporation’s preference
                                                                                                              24
                              Amtrak Office of Inspector General
          Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
            Requirements that Deserve Consideration for Future Authorizing Legislation
                                Audit Report OIG-A-2014-003

 PRIIA
Section           Title                     Requirement                                   Action
                                rights are violated.
  216      Special              The corporation is encouraged to           In August 2013, the corporation
           Passenger Trains     increase the operation of special trains   announced that the Autumn Express
                                funded by, or in partnership with,         special train will operate through
                                private sector operators through           scenic and historical sites in
                                competitive contracting to minimize        Delaware, Maryland, and
                                the need for federal subsidies.            Pennsylvania in November. Due to
                                                                           overwhelming ticket sales, in
                                                                           September Amtrak added a second
                                                                           Autumn Express train to its
                                                                           November schedule. The Vice
                                                                           President of Operations stated that it
                                                                           was a unique venture for the
                                                                           corporation to test as a potential
                                                                           new source of revenue.
  218      General Amtrak       The corporation may obtain services        According to the Acting Chief
           Provisions           from the General Services                  Finance Officer, the corporation
                                Administration.                            continues to work with the General
                                                                           Services Administration to use its
                                                                           vehicle and travel programs. No
                                                                           General Services Administration
                                                                           programs have been added since
                                                                           our prior PRIIA audit report in
                                                                           October 2011.
  219      Study of ADA         In consultation with station owners and    The corporation reported to
           Compliance           other railroads, the corporation must      Congress on its progress to comply
           Requirements at      evaluate the improvements necessary        with the Act in February 2009, and
           Existing Intercity   to ensure that the stations it serves      updated it in October 2010, August
           Rail Stations        are accessible to and usable by            2011, May 2012, August 2012,
                                individuals with disabilities, in          December 2012, and October 2013.
                                compliance with ADA. The evaluation        Status reports were provided to
                                shall include a detailed plan and          Congress, although this was not
                                schedule for bringing all applicable       required by PRIIA.
                                stations into compliance by the Act’s      The corporation reported that
                                2010 statutory deadline. The               additional, substantial changes
                                corporation must issue the evaluation      would be required at numerous
                                by February 1, 2009, along with            stations because of the DOT level-
                                recommendations for funding the            boarding rule issued in September
                                necessary improvements.                    2011. These changes will expand
                                                                           the necessary scope of work at
                                                                           many stations. As a result,
                                                                           implementing the Accessible
                                                                           Stations Development Plan will take
                                                                           longer and cost more to complete
                                                                           than initially proposed. The extent to
                                                                           which the rule will lengthen the
                                                                           program and increase its costs is
                                                                           still unclear.
  222      Onboard Service      Within one year after the performance      The corporation issued its Amtrak
           Improvements         metrics and standards are established      On-Board Service Improvement
                                under Section 207, Amtrak must             Plan to Congress on July 15, 2011,
                                develop and implement a plan to            and begun implementation through
                                                                                                               25
                              Amtrak Office of Inspector General
          Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
            Requirements that Deserve Consideration for Future Authorizing Legislation
                                Audit Report OIG-A-2014-003

 PRIIA
Section          Title                    Requirement                                   Action
                              improve on-board service pursuant to       initiatives to improve training and
                              the metrics and standards.                 supervision of staff and change
                              The corporation must provide a report      processes, procedures, and
                              to specific congressional committees       technologies to improve customer
                              on the improvements in the plan and        satisfaction.
                              the timeline for implementing such
                              improvements. The Act did not specify
                              an issue date for the report.
  223      Incentive Pay      The Board of Directors is encouraged       In November 2012, the Board of
                              to develop an incentive pay program        Directors approved a Total Rewards
                              for Amtrak management employees.           and Integrated Talent Management
                                                                         Strategy, which includes an
                                                                         incentive pay program. According to
                                                                         Amtrak, the program is modeled
                                                                         after industry best practices,
                                                                         including an integrated talent
                                                                         management program, short-term
                                                                         incentive plan, performance-based
                                                                         pay, health and wellness, and
                                                                         voluntary benefits, such as identity
                                                                         theft insurance and pet insurance.
  224      Passenger Rail     Within one year after PRIIA’s              In October 2009, the corporation
           Service Studies    enactment, the corporation must            issued studies of six prior and
                              conduct studies of six prior and current   current routes to determine whether
                              routes to determine whether to             to reinstate passenger rail service or
                              reinstate passenger rail service or a      a station stop, expand service, or
                              station stop, expand service, or reduce    reduce ticket prices.
                              ticket prices.
  226      Plan for           Within nine months of PRIIA’s              On July 16, 2009, the corporation
           Restoration of     enactment, the corporation must            issued the required plan, but has not
           Service            transmit to specific congressional         taken any further action to restore
                              committees a plan for restoring            passenger train service to the route.
                              passenger rail service between New
                              Orleans and Sanford, Florida. The
                              plan must include an estimated
                              timeline for restoring service, the
                              associated costs, and any proposals
                              for necessary legislation. The
                              corporation must consult with
                              representatives from selected states,
                              railroad carriers, rail passengers, rail
                              labor, and other entities as
                              appropriate.
  301      Capital            The corporation may enter into a           Although the corporation did not
           Assistance for     cooperative agreement with one or          enter into cooperative agreements
           Intercity          more states to participate in the          with states, it provided advice and
           Passenger Rail     Secretary of Transportation’s grants to    assistance to states in their efforts to
           Service            implement one or more ranked capital       obtain capital assistance and grants
                              projects in states’ rail plans.            for intercity passenger rail service.
  302      Congestion         In cooperation with states, the            Although the corporation did not
           Grants             corporation may participate in the         participate, it provided advice and
                                                                                                                 26
                              Amtrak Office of Inspector General
          Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
            Requirements that Deserve Consideration for Future Authorizing Legislation
                                Audit Report OIG-A-2014-003

 PRIIA
Section          Title                      Requirement                                    Action
                                Secretary of Transportation’s grants to     assistance to states in their efforts to
                                states to finance the capital costs of      obtain congestion grants.
                                facilities, infrastructure, and equipment
                                needed to reduce congestion or
                                facilitate ridership growth.
  304      Tunnel Project       Working with Amtrak; the Surface            Amtrak selected and obtained initial
                                Transportation Board; Baltimore,            approval from the stakeholders on a
                                Maryland; and rail operators, FRA           new rail tunnel alignment in
                                must select and approve a new rail          Baltimore.
                                tunnel alignment in Baltimore no later      In April 2011, FRA and Maryland
                                than September 30, 2013. The new            executed a grant agreement to
                                alignment should permit an increase in      obligate $60 million for the
                                train speed and service reliability, and    completion of the preliminary
                                ensure completion of the                    engineering and environmental
                                environmental review process.               reviews for the tunnel project.
                                                                            The corporation awarded a contract
                                                                            for the preliminary engineering study
                                                                            on November 1, 2013. The Senior
                                                                            Contracting Officer, Procurement
                                                                            and Materials Management, and the
                                                                            Project Director expect to award the
                                                                            contract for the environmental study
                                                                            in early 2014.
  305      Next-Generation      Within 180 days after PRIIA’s               The corporation established the
           Corridor Train       enactment, the corporation must             Next-Generation Corridor Equipment
           Equipment Pool       establish a Next-Generation Corridor        Pool Committee and produced the
                                Equipment Pool Committee—with               technical specifications for the next-
                                representatives from Amtrak, FRA,           generation train equipment,
                                host freight railroads, passenger           including the approved
                                railroad equipment manufacturers,           specifications for bi-level cars.
                                interested states, and other passenger
                                rail operators. The committee is to
                                design, develop specifications for, and
                                procure standardized next-generation
                                corridor equipment.
  306      Rail Cooperative     The Secretary of Transportation must        The corporation appointed its Chief
           Research             establish and carry out a rail              Engineer to the advisory board for
           Program              cooperative research program. Amtrak        the program, which was funded only
                                representatives are required to be          in 2012.
                                members of the advisory board for the
                                program.
  402      Routing Efficiency   Amtrak, commuter rail entities,             The corporation meets with freight
           Discussions with     regional and state public                   railroads and commuter rail entities
           Amtrak               transportation authorities, and freight     on an ongoing basis to develop
                                railroads are encouraged to engage in       feasible train schedules to satisfy all
                                discussions on routing and timing of        users’ requirements.
                                trains to improve performance.
  406      Cross-Border         No later than one year after PRIIA’s        The corporation issued the required
           Passenger Rail       enactment, Amtrak—in consultation           plan in October 2009.
           Service              with the Secretary of Transportation,
                                the Secretary of Homeland Security,
                                                                                                               27
                                  Amtrak Office of Inspector General
              Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
                Requirements that Deserve Consideration for Future Authorizing Legislation
                                    Audit Report OIG-A-2014-003

  PRIIA
 Section               Title                   Requirement                                  Action
                                    the Washington State Department of
                                    Transportation, and relevant owners—
                                    must develop a strategic plan to
                                    facilitate expanded passenger rail
                                    service across the U.S.-Canada
                                    border during the 2010 Olympics.
    501          High-Speed Rail    The Secretary of Transportation is        DOT awarded the corporation nearly
                 Corridor Program   authorized to establish and implement     $450 million to upgrade support
                                    a high-speed rail corridor development    systems and tracks between stops
                                    program. Eligible applicants include a    in Pennsylvania and New Jersey—
                                    state or Washington D.C., a group of      known as the New Jersey High
                                    states, an interstate compact, a public   Speed Rail Improvement Project.
                                    agency established by one or more         Of the approximately $450 million
                                    states, and Amtrak. Eligible corridors    granted for this project, the
                                    include the high-speed-rail corridors     corporation has spent more than
                                    designated by the Secretary of            $20 million, has more than
                                    Transportation. These funds are to be     $34 million in open purchase orders,
                                    used for acquiring, constructing, and     and has about $33 million in open
                                    improving rail structures and             purchase requests as of June 2013.
                                    equipment.
                                                                              Amtrak’s Senior Project Controls
                                                                              Analyst, New Jersey High Speed
                                                                              Rail Improvement Project, expects
                                                                              the project to take five years.

Source: OIG analysis of Amtrak data.


Amtrak Is in the Process of Addressing Two Provisions
The corporation is in the process of fully addressing the requirements specified in two
provisions. These provisions are:

   1. The corporation’s five-year financial plan for FY 2013 through FY 2017 does not
          fully address eight of the 16 categories of information required by Section 204,
          Development of Five-Year Financial Plan. This section requires the corporation to
          address at least 16 categories of information, including projected revenues and
          expenditures, projected ridership, estimates of long-term and short-term debt,
          labor productivity statistics, and anticipated security needs. The corporation has
          issued all of the required annual five-year financial plans. However, based on
          our analysis, the five-year financial plan for FY 2013 through FY 2017 did not
          fully address:

                 expenditure forecasts for non-passenger operations
                                                                                         28
                           Amtrak Office of Inspector General
       Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
         Requirements that Deserve Consideration for Future Authorizing Legislation
                             Audit Report OIG-A-2014-003


         projected capital and operating requirements, ridership, and revenue for
          any new passenger service operations or service expansions—the new
          Richmond/Norfolk segment

         assessments of the corporation’s ability to efficiently recruit, retain, and
          manage its workforce

         annual cash flow forecasts

         projected operating ratio, cash operating loss, and cash operating loss per
          passenger on a route, business line, and corporate basis

         prior fiscal year and projected specific costs and savings estimates
          resulting from reform initiatives

         projected labor productivity statistics on a route, business line, and
          corporate basis

         prior fiscal year and projected equipment reliability statistics

2. The corporation is a member of the Northeast Corridor Infrastructure and
   Operations Advisory Commission, which continues to develop a formula for
   allocating costs, revenues, and compensation required by Section 212, Northeast
   Corridor Infrastructure and Operations Improvements. Within 2 years of PRIIA
   enactment, the Commission is to develop a standardized formula for
   determining and allocating costs, revenues, and compensation for Northeast
   Corridor commuter rail passenger transportation on the main line between
   Boston, Massachusetts, and Washington D.C., and also on the branch lines
   connecting to Harrisburg, Pennsylvania; Springfield, Massachusetts; and
   Spuyten Duyvil, New York. This section also requires Amtrak and public
   authorities providing commuter rail passenger transportation on the Northeast
   Corridor to implement new agreements for usage of facilities or services based
   on this standardized formula. Further, if the entities fail to implement such new
   agreements in accordance with the timetable, the Commission shall petition the
   Surface Transportation Board to determine the appropriate compensation
   amounts for such services. The Vice President for Operations estimates that the
   development of the methodology will be completed in the summer of 2014, and
   implemented in October 2014.
                                                                                          29
                               Amtrak Office of Inspector General
           Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
             Requirements that Deserve Consideration for Future Authorizing Legislation
                                 Audit Report OIG-A-2014-003


For Three Provisions, Amtrak Is Not Yet Required to Act
The corporation has not been required to react to three provisions because the events
that trigger a response have not yet occurred:

      Because FRA has not recommended any methodologies to determine which
       intercity passenger routes and services to provide under Section 208,
       Methodologies for Amtrak Route and Service Planning Decisions, the precondition for
       the corporation to respond has not occurred.

      Because no Amtrak-operated route has been eliminated under Section 215,
       Employee Transition Assistance, the precondition for the corporation to certify that
       it made a reasonable attempt to reassign affected employees has not occurred.

      Because no state has selected an entity other than the corporation to operate an
       intercity passenger train route under Section 217, Access to Amtrak Equipment and
       Services, the precondition for it to develop an access agreement to its equipment
       and services has not occurred.
                                                                               30
                    Amtrak Office of Inspector General
Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
  Requirements that Deserve Consideration for Future Authorizing Legislation
                      Audit Report OIG-A-2014-003


                              Appendix III

COMMENTS FROM AMTRAK’S MANAGEMENT
                                                                               31
                    Amtrak Office of Inspector General
Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
  Requirements that Deserve Consideration for Future Authorizing Legislation
                      Audit Report OIG-A-2014-003
                                                                                          32
                               Amtrak Office of Inspector General
           Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
             Requirements that Deserve Consideration for Future Authorizing Legislation
                                 Audit Report OIG-A-2014-003


                                         Appendix IV

                                  ABBREVIATIONS


ADA           Americans with Disabilities Act of 1990, as amended
DOT           Department of Transportation
FRA           Federal Railroad Administration
FY            fiscal year
OIG           Office of Inspector General
PRIIA         Passenger Rail Investment and Improvement Act of 2008
Treasury      Department of the Treasury
                                                                                           33
                                Amtrak Office of Inspector General
            Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
              Requirements that Deserve Consideration for Future Authorizing Legislation
                                  Audit Report OIG-A-2014-003


                                          Appendix V

                                OIG TEAM MEMBERS

David R. Warren               Assistant Inspector General, Audits
Mark A. Little                Senior Director
Al Murray                     Auditor‐in‐Charge
Joseph Zammarella             Audit Manager
Courtney Catanzarite          Auditor
Dottie James                  Consultant
Roy Judy                      Consultant
                                                                                          34
                               Amtrak Office of Inspector General
           Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
             Requirements that Deserve Consideration for Future Authorizing Legislation
                                 Audit Report OIG-A-2014-003


            OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission            The Amtrak OIG’s mission is to provide independent,
                                objective oversight of Amtrak’s programs and operations
                                through audits, inspections, evaluations, and investigations
                                focused on recommending improvements to Amtrak’s
                                economy, efficiency, and effectiveness; preventing and
                                detecting fraud, waste, and abuse; and providing Congress,
                                Amtrak management, and Amtrak’s Board of Directors
                                with timely information about problems and deficiencies
                                relating to Amtrak’s programs and operations.


Obtaining Copies of OIG Available at our website: www.amtrakoig.gov
Reports and Testimony
To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                                Web:       www.amtrakoig.gov/hotline
                                Phone:     (800) 468-5469

Point of Contact
                                David R. Warren
                                Assistant Inspector General, Audits
                                Mail:      Amtrak OIG
                                           10 G Street, N.E., 3W-300
                                           Washington, D.C. 20002
                                Phone:     (202) 906-4600
                                Email:     david.warren@amtrakoig.gov
